           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Notification of Audit –                     Date:    November 17, 2004
           Compensation and Overhead Costs Claimed by
           Engineering and Design Firms on Federal-aid
           Grants, Federal Highway Administration
           Project Number: 04F3013F000
  From:    Theodore Alves                                        Reply to
                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits
    To:    Federal Highway Administrator


           The Office of Inspector General will perform an audit of engineering and design
           firms’ overhead cost audits on contracts awarded by state Departments of
           Transportation under Federal-aid grants. Each year an estimated $5 billion is paid
           by states for engineering and design contracts. These contracts are subject to
           annual audits of their overhead rates under Section 307 of the National Highway
           System Designation Act. Our audit objective is to evaluate the implementation
           and effectiveness of Section 307 audit requirements, including testing the
           allowability of compensation and other high overhead cost elements billed by
           these firms.

           We plan to start this audit in November 2004. We will contact your audit liaison
           to schedule an entrance conference date to discuss the planned audit. For any
           additional information, please call Terrence Letko, Program Director, at
           (202) 366-9917 or Ken Prather, Project Manager, at (202) 366-2985.


                                                     #

           cc: Director, Office of Budget and
                Finance, HABF-1
               Martin Gertel, M-1
               Cynthia Thornton, HAIM-13
